Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   HOSPITAL EMERGENCY
PREPAREDNESS AND RESPONSE
 DURING SUPERSTORM SANDY




                    Daniel R. Levinson
                     Inspector General

                     September 2014
                     OEI-06-13-00260
EXECUTIVE SUMMARY: HOSPITAL EMERGENCY PREPAREDNESS AND
RESPONSE DURING SUPERSTORM SANDY
OEI-06-13-00260

WHY WE DID THIS STUDY
Federal regulations require that hospitals prepare for emergencies including natural disasters.
The strength of Superstorm Sandy and the population density of the affected areas placed high
demands on hospitals and related services. Prior studies by the Office of Inspector General
found substantial challenges in health care facility emergency preparedness and response. In a
2006 study, we found that many nursing homes had insufficient emergency plans or did not
follow their plans. In a 2012 followup study, we found that gaps continued to exist in nursing
home emergency preparedness and response.
HOW WE DID THIS STUDY
For this study, we surveyed 174 Medicare-certified hospitals located in declared disaster areas in
Connecticut, New Jersey, and New York during Superstorm Sandy. We also conducted site
visits to 10 purposively selected hospitals located in areas most affected by the storm.
Additionally, we examined information from State survey agency and accreditation organization
surveys of hospitals conducted prior to the storm and spoke to surveyors about their survey
process related to emergency preparedness. We also interviewed State hospital associations and
health care coalitions in the three States.
WHAT WE FOUND
Most hospitals in declared disaster areas sheltered in place during Superstorm Sandy, and
7 percent evacuated. Eighty-nine percent of hospitals in these areas reported experiencing
substantial challenges in responding to the storm. These challenges represented a range of
interrelated problems from infrastructure breakdowns, such as electrical and communication
failures, to community collaboration issues over resources, such as fuel, transportation, hospital
beds, and public shelters. Hospitals reported that prior emergency planning was valuable during
the storm and that they subsequently revised their plans as a result of lessons learned. Prior to
the storm, most hospitals received emergency-related deficiency citations from hospital
surveyors, some of which related to the challenges reported by hospitals during Superstorm
Sandy.  
WHAT WE RECOMMEND
The experiences of hospitals during Superstorm Sandy and the deficiencies cited prior to the
storm reveal gaps in emergency planning and execution that might be applicable to hospitals
nationwide. Given that insufficient community-wide coordination among affected entities was a
common thread through the challenges identified by hospital administrators, we recommend that
the Office of the Assistant Secretary for Preparedness and Response (ASPR) continue to promote
Federal, State, and community collaboration in major disasters. We also recommend that the
Centers for Medicare & Medicaid Services (CMS) examine existing policies and provide
guidance regarding flexibility for reimbursement under disaster conditions. ASPR and CMS
concurred with the recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................8 

           Most hospitals in declared disaster areas sheltered in place 

           during Sandy, and 7 percent evacuated ............................................8 

           Eighty-nine percent of hospitals reported experiencing critical 

           challenges during Sandy, such as breakdowns in infrastructure 

           and community collaboration ..........................................................9 

           Hospitals reported that prior emergency planning was valuable 

           during the storm and that they subsequently revised their plans 

           as a result of lessons learned ..........................................................18 

           Prior to the storm, most hospitals received emergency- 

           related deficiency citations from hospital surveyors .....................19 

Conclusion and Recommendations ............................................................22 

Agency Comments and Office of Inspector General Response.................24 

Appendixes ................................................................................................25 

           Appendix A: Methodology ...........................................................25 

           Appendix B: Challenges Reported by Hospitals ..........................30 

           Appendix C: Agency Comments ..................................................33 

Acknowledgments......................................................................................39 

                  OBJECTIVES
                  1.	 To describe the disaster experiences of hospitals affected by
                      Superstorm Sandy, including challenges to hospital operations and
                      patient care.
                  2.	 To determine the extent to which State survey agencies and
                      accreditation organizations cited hospitals with emergency-related
                      deficiencies prior to Superstorm Sandy.

                  BACKGROUND
                  Superstorm Sandy
                  Superstorm Sandy (hereinafter referred to as Sandy) made landfall in the
                  northeastern United States on October 29, 2012, severely damaging
                  coastal areas of Connecticut, New Jersey, and New York. Although Sandy
                  had weakened from a hurricane by the time it reached the United States,
                  the storm surge combined with high tides caused widespread flooding
                  along the coastal areas. The storm claimed 72 lives and damage estimates
                  totaled nearly $50 billion.1 In Connecticut, New Jersey, and New York,
                  the Federal Government declared 40 counties as disaster areas.2 Within
                  these counties are 174 Medicare-certified, short-term acute care hospitals,
                  which are the subject of this report.3
                  Federal Requirements for Hospital Emergency Preparedness
                  Medicare Conditions of Participation. Medicare- and Medicaid-
                  participating hospitals must adhere to 23 Medicare Conditions of
                  Participation. The conditions are a set of minimum quality and safety
                  standards, including requirements such as protecting patient rights and
                  maintaining a physical environment that avoids transmission of infections
                  and communicable diseases.4 One of these conditions requires that
                  hospitals develop and implement a comprehensive emergency plan and
                  maintain a physical environment (e.g., emergency power and lighting in


                  1
                    National Hurricane Center, Tropical Cyclone Report: Hurricane Sandy (AL182012),
                  February 12, 2013. Accessed at http://www.nhc.noaa.gov/data/tcr/AL182012_Sandy.pdf
                  on March 13, 2013. At least 147 direct deaths were recorded across the Atlantic basin
                  because of Sandy; 72 of these fatalities occurred in the mid-Atlantic and northeastern
                  United States.
                  2
                    Federal Emergency Management Agency (FEMA), FEMA-4085-DR, FEMA-4086-DR,
                  and FEMA-4087-DR. Accessed at http://www.fema.gov on March 4, 2013.

                  3
                    Centers for Medicare & Medicaid Services (CMS) Certification and Survey Provider 

                  Enhanced Reports (CASPER).

                  4
                    42 CFR §§ 482.13 and 482.42.


Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                1
                  operating, recovery, intensive care, and emergency rooms) that ensures the
                  safety and well-being of patients during emergencies.5
                  Hospitals must also meet applicable provisions of the Life Safety Code,
                  including creating a written plan for protecting and evacuating all patients
                  and conducting fire drills held at unexpected times under varying
                  conditions.6 Other Life Safety Code requirements that hospitals must meet
                  relate to the physical environment, such as ensuring that fire extinguishers
                  are accessible, sprinkler systems are effective, passages are unobstructed,
                  and exits are clearly marked.7 Additionally, hospitals with emergency
                  departments must have adequate medical and nursing staff qualified to
                  meet the emergency needs of patients.8
                  On December 27, 2013, 14 months after Sandy made landfall, CMS issued
                  a notice of proposed rulemaking to establish national emergency
                  preparedness requirements for providers and suppliers participating in
                  Medicare and Medicaid. One of the proposed Medicare Conditions of
                  Participation is that hospitals have an emergency plan and preparedness
                  program that involves risk assessments, policies and procedures based on
                  those assessments, communication plans that coordinate with external
                  entities, and emergency training activities.9
                  Medicare Oversight of Hospital Emergency Preparedness. CMS includes
                  oversight of hospital emergency preparedness as part of its broader
                  Medicare compliance surveys conducted by State survey agencies and
                  CMS-approved accreditation organizations.10, 11
                  Although State survey agencies use similar survey instruments and
                  methodology, each accreditation organization uses its own process.

                  5
                    42 CFR § 482.41; CMS State Operations Manual, Appendix A - Survey Protocol,
                  Regulations and Interpretive Guidelines for Hospitals. 

                  6
                    42 CFR § 482.41(b) (i). The Life Safety Code is a source for strategies to protect

                  people that is based on building construction, protection, and occupancy features that

                  minimize the effects of fire and related hazards. Accessed at http://www.nfpa.org on

                  March 14, 2013. 

                  7
                    42 CFR § 482.41(b)(i) states that the facility must meet the applicable provisions of the 

                  2000 edition of the Life Safety Code of the National Fire Protection Association (NFPA), 

                  which is incorporated in the regulation by reference. See NFPA 101 Life Safety Code, 

                  2000 edition, §§ 7.1.10; 7.10.1.4; and 19.2-3, 6-7. Accessed at http://www.nfpa.org on

                  March 14, 2013. 

                  8
                    42 CFR § 482.55(b)(2). 

                  9
                    78 Fed. Reg. 79082-79200 (Dec. 27, 2013). 

                  10
                     Social Security Act (SSA); § 1865(a)(1); 42 U.S.C. 1395bb. 

                  11
                     Four national accreditors review hospital compliance: The Joint Commission (TJC), 

                  the American Osteopathic Association (AOA), Det Norske Veritas Healthcare 

                  (DNVHC), and the Center for Improvement in Healthcare Quality (CIHQ). CMS, CMS-

                  Approved Accreditation Organizations, 2013. 



Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                      2
                  During an accreditation survey, surveyors verify hospital compliance with
                  the Medicare Conditions of Participation and additional performance
                  standards imposed by the accrediting organization.12 If surveyors find that
                  a hospital does not meet a particular condition, they can cite the hospital
                  with one or more deficiencies to indicate noncompliance and require a
                  corrective plan of action or follow up with an onsite visit to validate
                  correction. To continue providing care to Medicare patients, hospitals
                  must correct deficiencies within a given timeframe depending on the
                  seriousness of the deficiency.
                  CMS provides guidance to surveyors in its State Operations Manual.13
                  The manual includes specific guidance regarding developing and
                  accessing emergency plans, including requirements to identify and ensure
                  availability of supplies and equipment, verify sufficient medical and
                  nursing staff, and confirm a clear chain of command during disasters.14
                  Hospitals may also use the manual as guidance in developing emergency
                  plans.
                  Other guidance that hospitals may use when developing or revising
                  emergency plans includes a CMS emergency preparedness checklist for
                  health care facilities. The checklist provides the same guidance for all
                  health care facilities, including hospitals, for developing emergency plans;
                  ensuring adequate supplies of food and water; identifying evacuation
                  routes; transporting patients, critical supplies, and equipment; and
                  collaborating with local emergency management agencies, suppliers, and
                  providers.15
                  Federal Disaster Preparedness and Response Programs
                  Two agencies within the Department of Health and Human Services
                  (HHS) operate and fund disaster preparedness programs. Through the
                  Hospital Preparedness Program, the Office of the Assistant Secretary for
                  Preparedness and Response (ASPR) funds grants and cooperative
                  agreements with States, territories, and eligible municipalities to enhance
                  community, hospital, and health care system preparedness for public


                  12
                     For example, TJC considers approximately 1,800 performance standards, only half of

                  which correspond to a Medicare Condition of Participation. Office of Inspector General 

                  (OIG) interview with TJC officials, November 15, 2013. 

                  13
                     CMS, State Operations Manual, Pub. 100-07. 

                  14
                     CMS, State Operations Manual, Appendix A—Survey Protocol, Regulations and 

                  Interpretive Guidelines for Hospitals, pp. 223, 226–228, and 360. Accessed at 

                  http://www.cms.gov on May 24, 2011. 

                  15
                     CMS, Survey & Certification: Emergency Preparedness Checklist Recommended Tool

                  for Effective Health Care Facility Planning. Accessed at http://www.cms.gov on

                  February 5, 2010. 



Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                 3
                  health emergencies.16, 17 Additionally, through the Public Health
                  Emergency Preparedness Cooperative Agreements program, the Centers
                  for Disease Control and Prevention (CDC) funds preparedness activities
                  for State and local public health systems.18
                  In the event of a disaster or emergency, the Federal Government uses the
                  National Response Framework to guide its actions to save lives, protect
                  property and the environment, stabilize affected areas, and meet basic
                  human needs.19 Using this framework, when local jurisdictions or tribal
                  governments have exhausted their resources in responding to a disaster or
                  emergency, they may request assistance from the State. When a disaster or
                  emergency is beyond the capabilities of the State, the Governor or tribal
                  government may seek Federal assistance. Within this framework, HHS is
                  responsible for planning and coordinating Emergency Support Function
                  (ESF) #8 to address public health, medical, and human services needs
                  during a public health or medical disaster or emergency, including patient
                  evacuation and patient care.20 The Secretary of HHS leads the
                  ESF #8 response which, when activated, is coordinated by ASPR.21, 22
                  Office of Inspector General Reports
                  Prior studies by OIG on health care facility emergency preparedness found
                  substantial challenges in both planning and execution. In a 2006 report,
                  we found that a sample of 20 nursing homes had emergency plans that
                  often lacked information suggested by experts. During emergencies,
                  nursing home administrators and staff sometimes did not follow their
                  emergency plans and insufficient collaboration between State and local
                  emergency entities and nursing homes impeded emergency preparedness

                  16
                     HHS, ASPR, “Hospital Preparedness Program Overview.” Accessed at
                  http://www.phe.gov on March 26, 2013.
                  17
                     In fiscal year 2014, ASPR’s Hospital Preparedness Program budget was reduced by
                  $103 million (33 percent of its overall budget). Given the funding reduction, ASPR
                  anticipates that many awardees will absorb the reduction in awards by scaling back on
                  emergency preparedness activities, including exercises and training. OIG conversation
                  with ASPR, May 2, 2014.
                  18
                     HHS, CDC, “Public Health Emergency Preparedness Cooperative Agreements.”
                  Accessed at http://www.cdc.gov on March 26, 2013. 

                  19
                     Department of Homeland Security (DHS), National Response Framework, January 

                  2008, p. 1, 12. Accessed at http://www.fema.gov/pdf/emergency/nrf/nrf-core.pdf on May

                  26, 2013. The second edition was published after Sandy in May 2013. 

                  20
                     DHS, Emergency Support Function #8–Public Health and Medical Services Annex, 

                  January 2008, p. 1-2. Accessed at http://www.fema.gov/pdf/emergency/nrf/nrf-esf-
                  08.pdf on May 26, 2013. The ESF #8 Annex was revised in May 2013. 

                  21
                     Pandemic and All-Hazards Preparedness Act of 2006, P.L. No. 108-173 § 102.

                  22
                     For more information on the National Response Framework and each Federal agency’s 

                  responsibilities during disasters, see http://www.fema.gov/media-library-data/20130726-
                  1914-25045-1246/final_national_response_framework_20130501.pdf . 



Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                4
                  and management.23 Subsequent to the 2006 report, CMS developed the
                  previously mentioned emergency preparedness checklist for health care
                  facilities.24
                  In a 2012 followup report, OIG found that gaps continued to exist in
                  health care facility emergency preparedness and response.25
                  Administrators from nursing homes reported challenges such as following
                  emergency plans as written, logistical problems related to transportation
                  and communication, and negative effects of evacuation on resident health.
                  We recommended that CMS revise Federal regulations to include
                  requirements for specific elements of emergency plans and training,
                  update the State Operations Manual to provide detailed and clear guidance
                  for surveyors assessing compliance with Federal standards, and promote
                  use of the checklist. Additionally, in a 2012 memorandum report, OIG
                  outlined guidance that CMS could consider when revising its emergency
                  preparedness checklist for health care facilities.26, 27

                  METHODOLOGY
                  Report findings are based on multiple data collection activities and
                  sources. We administered electronic questionnaires to the 174 Medicare-
                  certified, short-term acute care hospitals located in the 40 counties
                  declared as disaster areas in Connecticut, New Jersey, and New York (see
                  Figure 1 for a map of the counties declared as disaster areas and
                  Figure A-1 in Appendix A for a map of the hospitals located in the affected
                  areas). We received survey responses from 172 of the 174 hospitals. We
                  also conducted site visits to 10 purposively selected hospitals located in
                  areas most affected by the storm.
                  Additionally, we examined surveys conducted by the State survey
                  agencies and accreditation organizations of hospitals in the affected areas

                  23
                     HHS, OIG, Nursing Home Emergency Preparedness and Response During Recent
                  Hurricanes, OEI-06-06-00020, August 2006. 

                  24
                     CMS, Survey & Certification: Emergency Preparedness Checklist Recommended Tool

                  for Effective Health Care Facility Planning, September 2007. The checklist was revised

                  in September 2009. Accessed at http://www.cms.gov on February 5, 2010. 

                  25
                     HHS, OIG, Gaps Continue To Exist in Nursing Home Emergency Preparedness and
                  Response During Disasters: 2007-2010, OEI-06-09-00270, April 2012.
                  26
                     HHS, OIG, Supplemental Information Regarding the Centers for Medicare &
                  Medicaid Services' Emergency Preparedness Checklist for Health Care Facilities,
                  OEI-06-09-00271, April 2012.
                  27
                     In December 2013, CMS revised the checklist according to the outlined guidance in the

                  2012 OIG memorandum report. CMS, Survey & Certification: Emergency 

                  Preparedness Checklist Recommended Tool for Effective Health Care Facility Planning. 

                  Accessed at http://www.cms.gov on March 26, 2014. 



Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                  5
                  prior to the storm and spoke to the surveying entities about their survey
                  processes related to emergency preparedness. We reviewed surveys for
                  171 of the 174 hospitals.28 We also conducted telephone interviews with
                  State hospital associations and health care coalitions in the three States.29
                  (See Appendix A for a complete description of the methodology.)

                       Figure 1: Map of Counties Declared as Disaster Areas as a Result of
                       Sandy




                       Source: FEMA, FEMA-4085-DR, FEMA-4086-DR, and FEMA-4087-DR. Accessed at http://www.fema.gov
                       on March 4, 2013.



                  Limitations
                  Sandy affected numerous States along the east coast. However, we
                  selected only the 3 States that were most heavily affected by the storm and
                  the 40 counties within those States that were declared as disaster areas.
                  For this reason, experiences of these hospitals may not be reflective of
                  experiences of hospitals in other States or counties. Also, we did not
                  interview State or local emergency management entities to verify the

                  28
                    We did not receive surveys for three hospitals because of unavailable data. 

                  29
                    A health care coalition is a group of health care organizations and public safety and

                  public health partners that join forces for the common cause of making their communities 

                  safer, healthier, and more resilient before, during, and after disasters and other crises. 

                  National Healthcare Coalition Resource Center. Accessed at

                  http://healthcarecoalitions.org on January 2, 2014. 



Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                               6
                  information provided by hospitals related to their involvement during
                  Sandy. Further, we requested from accreditation organizations and State
                  survey agencies surveys of only the selected hospitals. Therefore,
                  deficiency data are not projectable to other hospitals. Lastly, we did not
                  directly link survey deficiency data to challenges reported by specific
                  hospitals because hospitals responded to the questionnaire anonymously.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)         7
                  FINDINGS

                  Most hospitals in declared disaster areas sheltered in
                  place during Sandy, and 7 percent evacuated
                  Sandy affected many aspects of hospital operations, and ultimately
                  93 percent of hospitals (160 of 172) sheltered in place, while
                  7 percent of hospitals (12 of 172) either evacuated (9) or partially
                  evacuated (3). Despite the challenging circumstances, according to ASPR,
                  hospitals did not experience any patient deaths as a result of the storm.
                  Several factors strongly influenced whether hospitals were able to shelter
                  in place or forced to evacuate all or some of their patients. For example,
                  location of the hospital near a flood zone, projections of poor weather, and
                  concerns about the structural integrity of the hospital might influence a
                  hospital to evacuate. Additionally, hospitals reported that prior experience
                  with hurricanes, including Hurricane Irene a year prior, strongly
                  influenced their disaster response.
                  Hospitals that sheltered in place served several functions
                  during the storm, including receiving patients from other
                  health care facilities and providing care to the public
                  Of the hospitals that sheltered in place, 65 reported receiving patients from
                  other hospitals. Receiving patients required hospitals to coordinate with
                  outside entities, bolster supplies and staff, and reduce the number of
                  existing patients prior to Sandy’s landfall. These outside entities included
                  local emergency management agencies, police departments, State health
                  departments, and evacuating hospitals. To reduce their patient populations
                  prior to the storm, many hospitals discharged patients identified as safe for
                  discharge, canceled elective surgeries and procedures, and redistributed
                  patients across multiple departments to enable a more evenly divided use
                  of resources. Specifically, 117 hospitals that sheltered in place reported
                  discharging patients whom hospital staff had identified as safe for
                  discharge, on the basis of their conditions, and the availability of
                  caregivers and a home or other destination located outside flood and
                  evacuation zones. During hospital site visits, administrators described
                  how hospitals also served as shelters for people in the community (with
                  and without medical needs) given that the hospitals were often the only
                  buildings nearby with electricity.
                  For hospitals that evacuated all or some of their patients,
                  evacuations typically occurred in two challenging stages
                  Prior to the storm, evacuating hospitals took actions similar to those of
                  hospitals that sheltered in place and discharged as many patients as
                  possible whom staff had identified as safe for discharge, canceled elective
Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)       8
                  surgeries and procedures, and closed their emergency departments.
                  Following that, with transportation assistance from local emergency
                  management and State health departments, hospitals moved remaining
                  patients to other hospitals. For three hospitals, evacuation was delayed
                  and more complicated. These hospitals had initially intended to shelter in
                  place, but later decided to evacuate. One of these hospitals began
                  evacuating shortly before Sandy made landfall. Soon thereafter the
                  hospital flooded. The other two hospitals evacuated the day after the
                  storm made landfall, having lost electric and gas utilities and being
                  surrounded by water.
                  Hospitals that partially evacuated faced the additional challenge of
                  coordinating which patients to evacuate and which to shelter in place.
                  These hospitals had initially decided to shelter all of their patients, but
                  later decided to evacuate some to other hospitals. One hospital reported
                  sheltering the most critically ill or fragile patients, while evacuating the
                  less critical patients to other hospitals within its network. Staff
                  consolidated the critical patients that remained to the safest floors and the
                  hospital moved its command center nearby so that staff and patients were
                  at one location. To ensure continuity of care for evacuated patients, the
                  hospital sent nurses, nurse assistants, and leadership staff to the receiving
                  hospitals and reported that doing so relieved some of the anxiety of
                  evacuating for patients and their families.

                  Eighty-nine percent of hospitals reported experiencing
                  critical challenges during Sandy, such as breakdowns
                  in infrastructure and community collaboration
                  Most hospitals (153 of 172) reported facing substantial challenges when
                  responding to the storm, whether they evacuated or sheltered in place.30
                  These challenges represented a range of interrelated problems from
                  infrastructure breakdowns, such as electrical and communication failures,
                  to community collaboration issues over resources, such as fuel,
                  transportation, hospital beds, and public shelters. In reviewing the
                  challenges reported by hospitals, we identified two broad problems:
                  patient care and staffing. (See Appendix B for a table of challenges
                  reported by hospitals.)




                  30
                    The remaining 11 percent of hospitals (19 of 172) reported that they did not experience
                  substantial challenges during Sandy.


Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                   9
                  Hospitals reported that infrastructure breakdowns, such as
                  electrical failures, affected patient care during the storm
                  Approximately half of hospitals in the declared disaster areas (83 of 172)
                  reported challenges with their facility infrastructure when responding to
                  Sandy. Of these hospitals, 18 reported flooding as a result of the storm
                  (see Figure 2). The floods severely affected hospitals, whether a few
                  inches of water penetrated facility entryways or several feet of water
                  subsumed hospital corridors. In one hospital, only 1 inch of water entered
                  the building but the effect was still significant in that the water
                  compromised the backup generator, forcing the hospital to evacuate when
                  it lost electrical power. Another hospital, along with its surrounding
                  community, was inundated with several feet of water. This hospital
                  eventually evacuated, as substantial flood water, rising out of the sewer,
                  disabled its generators and water supply.
                    Figure 2: Flooding in One Hospital During Sandy




                    Photo courtesy of Paul Walker, Hoboken University Medical Center. Used with permission.

                  For 29 hospitals, structural damage caused by flood and wind was a
                  significant challenge for hospital operations during the storm. Some
                  hospitals continued to struggle with the physical damage caused by Sandy
                  long after the storm as they recovered full operations. One hospital
                  sustained damage so severe that most of its services (e.g., emergency,
                  inpatient, and outpatient services) remained closed at the time of our
                  evaluation, nearly a year after the storm.
                  Widespread power outages forced hospitals to rely on backup generators
                  and use alternative procedures when delivering care to patients. Of
                  hospitals in declared disaster areas, 69 reported experiencing electrical
                  utility outages, and for more than two-thirds of these hospitals (28 of 69),
                  backup generators were not a reliable power source. One hospital
                  described how within 30 minutes after a nearby river overflowed the
                  banks, water had disabled all power and turned the hospital completely
Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                        10
                  dark. Although this hospital placed its backup generators on the 13th floor,
                  away from potential flooding, the fuel pumps were located in the flooded
                  basement. To keep the generators running, the hospital created a “bucket
                  line” in which staff passed fuel up 13 flights of stairs until the hospital
                  could evacuate hours later (see Figure 3). Although it never carried them
                  out, this same hospital reported making decisions about which machine-
                  dependent patients to keep on the limited number of emergency power
                  outlets and which ones to take off life support machines in the event of
                  power disruption.

                    Figure 3: Fuel “Bucket Line” in One Hospital During
                    Sandy




                    Photo courtesy of NYC Health and Hospitals Corporation. Used with permission.


                  During hospital site visits, administrators reported that some staff
                  struggled to use alternative procedures when delivering care to patients
                  during the extended power outages. For example, administrators in one
                  hospital described how staff were accustomed to relying on intravenous
                  therapy (IV) pumps to deliver fluids to patients, but now had to count
                  drips manually to ensure that the pumps delivered fluid at the proper rate.
                  Administrators from another hospital indicated that new and inexperienced
                  nurses had little knowledge of alternative procedures. This hospital held
                  “crash courses” during the storm to teach staff alternative procedures, such
                  as manually suctioning intubated patients.



Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)              11
                     Power failures affected hospital access to patient medical records, crucial
                     for providing appropriate patient care. Seven hospitals reported problems
                     with accessing medical records during the storm. In one of these
                     hospitals, most medical records, computers, and hospital files were
                     destroyed by flooding. Another hospital reported receiving patients from a
                     nearby hospital without medical records because the records were
                     electronic and inaccessible without power. The only information that the
                     evacuating hospital could provide were oral histories by caregivers
                     evacuating with their patients. Administrators from another hospital that
                     also received patients without medical records reported that in some cases,
                     the medical records arrived several days after the patients. One hospital
                     that also received evacuating patients without medical records, or with the
                     wrong records, attributed problems to miscommunication between the
                     evacuating hospital and EMS (emergency medical services) who were
                     responsible for transferring the patients.
                     Hospitals reported challenges related to communication
                     failures during the storm
                     About one-third of hospitals in the declared disaster areas (59 of 172)
                     reported that communication was a challenge during the storm, including
                     contacting staff, officials, and other hospitals. Sandy compromised cell
                     phone towers, flooded telephone switching stations, and damaged
                     telephone utility poles (see Box 1 for a description of one hospital’s
                     communication challenges during the storm). Several hospitals reported
                     that they subsequently developed multiple communication channels, such
                     as using multiple cell phone providers, using satellite telephones, and
                     installing a cell phone tower in the hospital that will be powered by a
                     generator.
  Box 1: One Hospital’s Communication Challenges During Sandy

  As Sandy made landfall, administrators described how losing both landline and cell phone service became a
  major challenge to hospital operations during the storm. “You assume the back-up will work, but when the
  back-up does not work what do you do?”

  Throughout the storm, the hospital had no contact with outside entities. Although the only hospital in the
  community, neither city nor county emergency managers provided the hospital with updates during or
  immediately after the storm. Several years prior to Sandy, a Medical Command Center was established by
  the State to provide hospitals with information about resources during a disaster. However, this Medical
  Command Center became inoperable during Sandy because it did not have a backup system in place when
  power outages and communication failures struck the area.

  Administrators also reported that using two-way radios (walkie-talkies) for communicating within the hospital
  was difficult because they did not have enough devices. Therefore, hospital staff found themselves running
  up and down the hospital floors delivering messages and receiving updates.
                     Hospitals struggled to communicate with other hospitals and external
  Source: Summary of communication challenges reported to OIG by the hospital administrators.
                     entities. Forty-seven hospitals reported challenges in communicating with



Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                     12
                  Hospitals struggled to communicate with other hospitals and external
                  entities. Forty-seven hospitals reported challenges in communicating with
                  other hospitals and external entities, such as local emergency management
                  agencies, State and local health departments, and utility companies.
                  Administrators from one hospital that received patients reported struggling
                  to coordinate the transfer of patients with the evacuating hospital because
                  of nonfunctioning communication systems. Another hospital reported that
                  it learned after the storm that other hospitals wanted to help, but were
                  unable to contact the hospital to offer assistance.
                  Hospitals also reported challenges with community
                  collaboration over shared resources, such as fuel,
                  transportation, hospital beds, and public shelters
                  Of hospitals in declared disaster areas, 47 reported experiencing
                  collaboration challenges with other hospitals and community entities when
                  responding to Sandy. Many of these challenges were interrelated and
                  included problems with distributing and sharing fuel, transportation,
                  hospital beds, and space in public shelters, all of which affected the
                  capability of hospitals to care for patients.
                  Hospitals struggled to secure sufficient fuel supply, which affected all
                  aspects of hospital operations, including staff availability. For
                  29 hospitals, fuel shortage was a challenge that substantially affected
                  patient care. Fuel needs included running backup generators, operating
                  ambulances, ensuring delivery of supplies, and securing sufficient staffing
                  levels. Although gasoline was often available, gas stations did not have
                  backup generators to pump the gasoline when the main power went out.
                  Administrators from one hospital reported that there was no community
                  collaboration regarding fuel. Further, another hospital described how the
                  hospital ran on backup generators for a week, in constant fear of running
                  out of fuel, and was the last hospital in its State to get power back after the
                  storm.
                  For one hospital, fuel availability was the most significant factor to affect
                  the sufficiency of staffing during the storm. In this case and others, much-
                  needed hospital staff were unable to get to work because of fuel shortages.
                  One-third of hospitals in declared disaster areas (57 of 172) reported
                  staffing challenges, including shortages of clinical and nonclinical staff.
                  According to hospitals, the State and local authorities eventually arranged
                  for doctors and nurses to receive priority in obtaining gasoline from the
                  limited number of gas stations still functioning. However, one hospital
                  expressed that the arrangement to provide gasoline to essential staff should
                  have come earlier. Another hospital suggested that the prioritization of
                  gasoline should have included more staff than just doctors and nurses,

Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)         13
                  given that many hospital staff, such as pharmacy staff, environmental
                  services staff, and senior leadership, are essential to hospital operations.
                  Public transit system and road closures affected hospital staffing.
                  Fifteen hospitals reported transportation challenges as a result of Sandy.
                  Road closures and inoperable public transit systems, in addition to fuel
                  shortages, made it difficult for staff to get to work. One hospital described
                  how doctors tried to get to the hospital, but city and law enforcement staff
                  turned them away because of road closures. Administrators expressed the
                  desire for hospital staff to be considered by community officials as
                  emergency workers, such as first responders, allowing them privileged
                  access to hospitals in affected areas.
                  Hospitals encountered insufficient patient transportation. One hospital
                  that partially evacuated stated that a full evacuation would have been
                  impossible because it did not have enough ambulances. In this case, each
                  patient took approximately 3 hours to transfer to the receiving facility (see
                  Figure 4 for a photo of an ambulance convoy during Sandy). Another
                  hospital reported that limitations in moving patients across State lines
                  caused ambulances to travel greater distances under storm conditions. For
                  example, evacuating hospitals reported that they could transfer Medicaid
                  patients across State lines only if the receiving hospital had assurance of
                  reimbursement for those patients. Without such limitations, the hospital
                  could have transferred patients more quickly to nearby hospitals in its
                  neighboring State, rather than tying up ambulances for 4-5 hours for each
                  patient that instead had to be transported to hospitals at greater distances
                  within the State.
                    Figure 4: Photo of an Ambulance Convoy During Sandy




                    Photo courtesy of U.S. Air Force, Airman 1st Class, Matthew R. Throneberry. Used with permission.




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                                  14
                  Differences in policies regarding evacuation procedures and patient care
                  affected collaboration between hospitals and EMS. For five hospitals,
                  collaboration with EMS was a challenge during the storm. One hospital
                  described the logistics of evacuating patients as a “nightmare” in that EMS
                  staff took control of the evacuation without input from the hospital. For
                  example, the hospital wanted to transport ventilator patients individually
                  in ambulances, but the EMS provider placed them in ambulance buses
                  with several other patients. Additionally, EMS chose to put ventilator
                  patients and other more acute patients in the back of the bus instead of the
                  front, which meant that critical patients had to spend more time on the bus
                  than the noncritical patients who were loaded last and unloaded first. One
                  hospital explained this collaboration challenge as a difference in
                  philosophy about transfers: the hospital treated the transfer as a planned
                  evacuation in which they use normal ambulance procedures, while EMS
                  considered it an emergency evacuation in which they try to get everyone
                  out as quickly as possible.
                  Hospitals reported challenges with securing sufficient patient beds,
                  particularly specialty beds. As Sandy swept across several States,
                  hospitals began to compete for patient beds. Eighteen hospitals reported
                  experiencing challenges with patient bed shortages during the storm.
                  One hospital described how specialty beds (e.g., intensive care) were
                  particularly in demand. Another hospital reported extreme difficulty
                  finding beds appropriate for ventilator dependent patients and psychiatric
                  patients. Compounding this problem were differences in bed type
                  definitions across facilities. For example, a hospital may state that it has
                  an intensive care unit (ICU) bed available, but because definitions of ICU
                  beds vary, the hospital may not be able to care for every type of ICU
                  patient (e.g., neurosurgery patients). Additionally, members of a health
                  care coalition expressed concern about the lack of a bed-tracking
                  mechanism that accounted for the type of bed needed. They reported that
                  this caused an uneven distribution of patients across hospitals during the
                  storm. For example, one hospital responded to every bed request because
                  it was unaware of availability in other hospitals. Some hospitals attributed
                  these challenges to unorganized or nonfunctioning ESF #8 coordination.
                  According to these hospitals, the lack of a common operating system
                  limited the communication between State and city government entities and
                  consequently affected hospitals’ ability to effectively communicate their
                  needs and availability during the storm.
                  Hospitals faced a patient surge from other health care providers, not only
                  other hospitals but also from clinics and physician offices. For 74
                  hospitals in declared disaster areas, effectively handling patient surge was
                  a substantial challenge (see Box 2 for a description of one hospital’s
Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)       15
                     experience with patient surge during Sandy). To make room for new
                     patients during the storm, most hospitals (126) reported discharging
                     patients whom staff had identified as safe for discharge. However, for 30
                     hospitals, discharging substantial numbers of patients was not feasible.
                     One of these hospitals described how the surrounding area was flooded or
                     was without power, including many patients’ homes. The hospital
                     reported that its patient numbers during Sandy were nearly 50 percent
                     higher than normal, which required the hospital to open a closed unit.
                     Another hospital reported that transportation problems inhibited
                     discharging patients who were well enough to go home and had waiting
                     caregivers and safe destinations.
   Box 2: One Hospital’s Patient Surge Experience During Sandy

   Administrators at one hospital that sheltered in place reported that when nearby hospitals evacuated, not only
   did the hospital receive many of their patients but also their hospital became the only facility in the area
   capable of caring for trauma patients and non-urgent-care medical needs. During the patient surge, which
   lasted 4 months, the hospital received over 600 patients from other hospitals.

   To accommodate the patient surge, the hospital added beds in the emergency department, turned private
   patient rooms into semi-private rooms, converted the lobby into an inpatient care facility and nursing areas
   into patient rooms, and set up tents outside the facility to treat patients. Despite these efforts, administrators
   described how the hospital struggled with not having sufficient patient beds and being over the Medicare-
   allowed patient capacity in the emergency department throughout the storm.

   The hospital also struggled to accommodate the unexpectedly large number of staff and staff families who
   needed room and board after losing their homes and vehicles or who were unable to leave and return to work
   because of fuel shortages, road closures, and public transit system shutdowns. The hospital partnered with a
   nearby hotel to house some of its staff, while other staff slept on cots provided by the city.

   Source: Summary of patient surge description reported to OIG by the hospital administrators.




                     Hospitals also reported a surge of patients from other health care providers
                     during and in the aftermath of the storm because many community-based
                     providers closed their facilities (see Figure 5). In some cases, staff at
                     health care clinics, such as dialysis centers, instructed patients to go to
                     hospital emergency rooms. In other cases, community members with
                     chronic diseases, such as diabetes and hypertension, sought care because
                     they ran out of medicine during the storm because of closures of
                     pharmacies and doctor’s offices. For one hospital, the closure of nearby
                     methadone clinics and mental health clinics caused patients with drug
                     abuse problems and mental illness to seek treatment at the hospital.
                     According to this hospital, it treated three times the normal number of
                     methadone patients during the storm. Administrators also expressed
                     concern about security, reporting that local police were unavailable to
                     offer assistance. During interviews, a State hospital association official
                     reported that the closure of mental health clinics prevented patients from
                     getting counseling, support, and medications during the storm, which has
Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                          16
                  resulted in an increase of psychiatric patients in hospitals since the storm.
                  Figure 5: Hospitals With Patient Surge Challenges, by Surge Source,
                  N=172

                       25%

                       20%

                       15%

                       10%

                        5%

                        0%




                  Note: Some hospitals reported experiencing challenges with more than one patient surge source.
                  Source: OIG analysis of 172 hospital questionnaire responses, 2013.

                  Hospitals also functioned as community shelters, sometimes expending
                  hospital resources for those without medical need. When asked in the
                  questionnaires what the communities could have done differently in
                  responding to Sandy, 50 hospitals responded that their communities
                  should have provided more shelters (medical and nonmedical) to the
                  public. According to hospital administrators in one area, the county
                  opened several public shelters but did not publicize them to the
                  community.
                  As a result of the limited number of medical shelters, 35 hospitals reported
                  challenges with treating a surge of homebound community members.
                  One of these hospitals described oxygen-dependent community members
                  arriving at the emergency room immediately after Sandy made landfall
                  because they needed electrical outlets for their oxygen tanks. The hospital
                  reported this surge as its most difficult problem during the storm because
                  these individuals did not qualify for hospital admission on the basis of
                  medical necessity, but consumed much of the hospital’s resources in
                  power and staffing. For 18 hospitals, unbillable patient care was a
                  challenge that hampered their recovery from the storm.
                  In some communities, hospitals also became a “neighborhood sanctuary”
                  for community members who needed shelter but not medical care. One

Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                             17
                  hospital reported monitoring its electrical outlets to make sure that people
                  did not use unnecessary power while the hospital was running on backup
                  generators. Another hospital described the costly challenge of feeding the
                  community and giving away large quantities of supplies during and in the
                  immediate aftermath of the storm, purchased at full retail prices rather
                  than wholesale prices, at the same time it was losing revenue on canceled
                  elective surgeries and outpatient services.

                  Hospitals reported that prior emergency planning was
                  valuable during the storm and that they subsequently
                  revised their plans as a result of lessons learned
                  All 172 hospitals reported participating in at least 1 community-wide
                  emergency preparedness activity, such as a simulated disaster exercise or
                  an actual response to an emergency, in the year prior to Sandy. Hospitals
                  reported that a diverse group of participants from the hospital were
                  involved in these activities, including nursing, security, and emergency
                  departments. Some hospitals credited the success of their responses to
                  Sandy to participation in these emergency preparedness activities. One
                  administrator expressed how the hospital had drilled on a variety of
                  emergency scenarios prior to Sandy, but Sandy was a storm of such
                  magnitude that it constituted all the scenarios “happening at once.”
                  Although, a causal link could not be made between the challenges
                  experienced by hospitals during Sandy and their emergency planning prior
                  to the storm, most of the hospitals (16 of 19) that reported not
                  experiencing any substantial challenges attributed their lack of problems
                  to successful emergency planning.
                  Regarding support received in the year prior to Sandy, 143 hospitals
                  reported receiving support through ASPR’s Hospital Preparedness
                  Program and 52 hospitals received support through CDC’s Public Health
                  Emergency Preparedness Cooperative Agreements Program. Most of this
                  support was in the form of supplies and equipment (e.g., stretchers, cots,
                  and cell phones). Support also came in the form of funding for disaster
                  training and drills, such as sponsoring regional exercises, and disaster
                  planning guidance. One hospital administrator noted that the availability
                  of ASPR’s Hospital Preparedness Program funds provided incentives for
                  the hospital to invest in emergency preparedness and build relationships
                  with other facilities.




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)       18
                  Hospitals reported that emergency plans were useful during the
                  storm, but they identified opportunities for improvement
                  All but 1 of the 172 hospitals reported that their written emergency plans
                  were useful during Sandy. Most hospitals (117 of 172) attributed this to
                  the plans’ being current and accessible to staff, and staff were generally
                  trained on the plans. Hospitals also cited useful factors, such as plans that
                  specifically addressed hurricanes or were designed for all hazards. The
                  single hospital reporting that its plan was not useful noted that it
                  restructured the plan and enhanced its exercises as a result of Sandy.
                  In total, 139 hospitals reported making changes to their plans following
                  Sandy. Examples of changes included planning for emergencies of longer
                  duration and more clearly defining staff roles during the emergency. In
                  discussing their hospital response to Sandy, administrators at several
                  hospitals reported they found, during the storm, that key staff roles were
                  unassigned. These administrators identified a need for additional training
                  of staff in leadership roles and for frontline staff to be well-versed in the
                  hospital emergency plan. Another hospital developed a pre-storm
                  checklist for each department, including administration, clinical
                  laboratory, and facilities. The checklist breaks down tasks according to
                  projected time of storm impact and includes verifying available
                  equipment, notifying staff and local authorities, and ensuring adequate
                  supplies (such as food, linens, and flashlights).

                  Prior to the storm, most hospitals received
                  emergency-related deficiency citations from hospital
                  surveyors
                  During the most recent survey conducted prior to Sandy, surveyors cited
                  157 of 171 hospitals in declared disaster areas for deficiencies related to
                  emergency preparedness and response. These deficiencies made up one-
                  fourth of all deficiencies cited during the surveys (775 of 3,063 deficiency
                  citations). While some of these deficiencies related to the challenges
                  experienced by hospitals during the storm, other deficiencies did not relate
                  but could affect hospitals’ ability to respond to a major disaster. Taken as
                  a whole, the deficiency citations appear to demonstrate that surveyors
                  review hospital operations relevant to emergency preparedness.
                  Hospitals received deficiency citations related to many of the
                  issues administrators identified as challenges during Sandy
                  Deficiencies that related to emergency preparedness and response
                  reflected a broad range of issues; 60 hospitals had deficiencies related to
                  challenges identified by hospitals during Sandy.


Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)          19
                  Utility systems found deficient, such as routine testing of generators.
                  Surveyors cited 47 hospitals for emergency deficiencies that related to
                  their utility systems, a prominent challenge reported by hospitals during
                  Sandy. Many of these deficiencies involved infrequent testing or incorrect
                  testing of the hospital backup generator. Other deficiencies related to
                  infrequent testing or lack of emergency lighting systems. As noted earlier,
                  69 hospitals reported challenges with their electrical utilities that either
                  required use of emergency power or placed them at risk of requiring its
                  use.
                  Emergency planning found deficient, such as conducting adequate
                  emergency drills. Surveyors cited 23 hospitals for deficiencies related to
                  emergency planning and drills. Several hospitals were cited for not
                  specifying in their bylaws which staff were responsible for granting
                  physician privileges during disasters or not requiring valid identification
                  for volunteer practitioners. Surveyors also cited hospitals with
                  deficiencies for failing to follow required procedures in conducting
                  emergency drills. Some of these deficiency citations were directly related
                  to preparation for major disasters, such as Sandy. For example,
                  one hospital with emergency drill deficiency citations did not include a
                  simulation of patient surge, which corresponds to the second most-
                  reported challenge among hospitals during Sandy. Another hospital
                  received deficiency citations on the survey prior to Sandy for not
                  establishing a sustainability plan when the hospital cannot be supported by
                  the local community, such as instances when vendors are unable to
                  provide the hospital with necessary supplies and equipment.
                  Hospitals also received deficiencies for other emergency-
                  related issues, such as fire safety and obstruction
                  Surveyors cited 156 hospitals for deficiencies that were not identified as
                  challenges during Sandy but covered other issues related to emergency
                  preparedness and response. These deficiencies largely concerned fire
                  safety, obstruction, and signage, which could affect the ability of hospitals
                  to evacuate or receive patients during a major disaster. Issues such as
                  improper hospital signage could have serious implications during
                  disasters, including impeding evacuation and hampering navigation for
                  visiting staff who are evacuating to receiving hospitals and are not familiar
                  with the surroundings.
                  Fire safety deficiencies mostly addressed equipment problems. Surveyors
                  cited 144 hospitals for deficiencies that concerned fire safety. A major
                  portion of the Medicare Condition of Participation pertaining to physical
                  environment assesses hospital compliance with fire safety requirements.
                  Numerous hospitals received deficiency citations related to fire safety

Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)       20
                  equipment (e.g., rooms not equipped with smoke detectors, inaccessible
                  fire extinguishers, and obstructed sprinkler heads). Other examples of
                  deficiencies that could result in problems in a fire included nonlatching
                  smoke barrier doors and fire resistant walls not properly sealed with
                  fire-resistant material.
                  Obstruction of hospital exits cited as deficiencies. Surveyors cited
                  82 hospitals for deficiencies related to obstructions to exits or exit routes.
                  For example, surveyors found medical equipment and furniture that
                  blocked corridors that would be used to exit the building. Surveyors also
                  cited hospitals for exit doors that either failed to open or were locked and
                  required a code or badge to open.
                  Misleading or missing hospital signage cited as deficiencies. Surveyors
                  cited 50 hospitals for deficiencies related to insufficiencies with hospital
                  signage. For example, numerous hospitals were cited for not posting “No
                  Exit” signs on passages that could be mistaken for exits. One hospital was
                  cited for posting an “Exit” sign directing people into a hazardous storage
                  area and another for posting an “Exit” sign directing people out onto the
                  roof. Surveyors also cited hospitals for not posting “Exit” signs on actual
                  exit routes. Additionally, surveyors cited hospitals for not having signs
                  identifying the story of each stairwell landing.




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)             21
                  CONCLUSION AND RECOMMENDATIONS
                  The strength of Sandy and widespread flooding along the coastal areas
                  placed high demands on affected hospitals and related services. While
                  facing challenges created by the storm, hospital operations were highly
                  vulnerable to breakdowns. These challenges, along with emergency-
                  related survey deficiencies, revealed gaps in planning and execution that
                  might be applicable to hospitals nationwide. Improvements are needed in
                  hospital planning and infrastructure, community-wide collaboration, and
                  access to resources. These improvements will require targeted
                  adjustments in Federal coordination and oversight.
                  Therefore, we recommend the following:
                  ASPR should continue to promote Federal, State, and
                  community collaboration in major disasters
                  ASPR has a role in ensuring that hospitals practice effective emergency
                  management through the Hospital Preparedness Program, but insufficient
                  community-wide coordination among affected entities was a common
                  thread through the challenges identified by hospital administrators. ASPR
                  should encourage awardees of the Hospital Preparedness Program to
                  prioritize exercises for communities and health care coalitions that include
                  hospitals, long-term care facilities, EMS, emergency management, public
                  health, and other essential partners. Exercises should address patient and
                  medical surge and failures of key resources (e.g., power, emergency
                  generator, and primary and secondary communication devices). ASPR
                  should also provide guidance to communities and health care coalitions to
                  strengthen information sharing and enhance interoperable communication
                  capabilities. The guidance should emphasize the importance of
                  conducting exercises and establishing plans that address centralizing
                  coordination of evacuations, tracking patients and beds (e.g., identifying
                  specialty beds), setting up medical and nonmedical shelters, identifying
                  community members with special needs (e.g., oxygen-dependent
                  individuals), and coordinating requests for assistance (e.g., fuel, staff
                  transportation).
                  CMS should examine existing policies and provide guidance
                  regarding flexibility for reimbursement under disaster
                  conditions
                  During large-scale disasters, such as Sandy, access to medical needs
                  shelters may be insufficient to meet the ongoing medical care of some
                  Medicare and Medicaid beneficiaries. CMS should examine the existing
                  medical necessity criteria for Medicare and Medicaid reimbursement
                  during disasters, to allow hospitals greater flexibility to provide medical

Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)          22
                  care to individuals who under normal circumstances do not meet the
                  criteria for hospital admission (e.g., oxygen-dependent individuals). CMS
                  should also provide guidance to hospitals regarding Medicare and
                  Medicaid reimbursement when receiving patients from other States, to
                  improve the coordination of patient evacuations. Because of confusion
                  over reimbursement for care of Medicaid patients transported across State
                  lines, at least one hospital instead had to transfer patients greater distances
                  to different hospitals within the State.
                  Additionally, CMS should develop guidance to hospitals to ensure that
                  they can meet patient surge from evacuating hospitals and surrounding
                  communities. For example, guidance could include drills and exercises
                  focusing on short-term and long-term patient surge, planning for
                  additional supplies and equipment, and accessibility to vendors and
                  resources during disasters. Further, CMS should include additional
                  guidance on the Medicare Conditions of Participation focused on
                  sufficiency and training of medical staff, to prepare them for maintaining
                  patient care during extended periods of poor conditions, including loss of
                  power, technology, and equipment.




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)         23
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  We received comments on the draft report from ASPR and CMS.
                  ASPR concurred with our recommendation to continue promoting Federal,
                  State, and community collaboration in preparing for, responding to, and
                  recovering from disasters. ASPR stated that it will continue to provide
                  technical assistance to support the growth of health care coalitions to
                  enhance community resilience. ASPR stated that through the health care
                  coalitions and the Hospital Preparedness Program, it will address the
                  challenges identified in this report. Further, ASPR outlined several
                  initiatives that are underway that will support collaboration among
                  Federal, State, and community entities, including a technical assistance
                  center where stakeholders can share best practices and lessons learned and
                  tools for assessing communities’ and hospitals’ capabilities in responding
                  to medical surge and rapid influx of patients during a disaster.
                  CMS concurred with our recommendation to examine existing policies
                  and provide guidance regarding flexibility for reimbursement under
                  disaster conditions. CMS described several existing statutory and
                  regulatory provisions that authorize the Secretary to waive or modify
                  program rules in an emergency and during an emergency period.
                  However, CMS stated that at this time, Medicare has no statutory authority
                  that would afford hospitals flexibility to bill for medical care to patients
                  who would not normally meet the criteria for hospital services. In
                  response to our recommendation about providing guidance, CMS
                  referenced the proposed rule that would establish national emergency
                  preparedness requirements for providers and suppliers participating in
                  Medicare and Medicaid.31 CMS also stated that once the proposed rule is
                  finalized, it will issue revised interpretive guidance to health care
                  providers and suppliers that will explain in detail the new requirements
                  and address issues identified in this report.
                  For the full text of ASPR’s and CMS’s comments, see Appendix C.




                  31
                       78 Fed. Reg. 79082-79200 (Dec. 27, 2013).


Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)      24
                  APPENDIX A

                  METHODOLOGY
                  This study describes disaster experiences of Medicare-certified, short-term
                  acute care hospitals located in the 40 counties in Connecticut, New Jersey,
                  and New York that received disaster declarations as a result of Sandy.
                  This study also examines emergency-related deficiencies cited to these
                  hospitals by State survey agencies and accreditation organizations prior to
                  the storm.
                  Data Collection
                  Hospital Questionnaires
                  We administered electronic questionnaires to 174 hospitals located in the
                  federally declared disaster areas (see Figure A-1 for a map of the hospitals
                  located in the affected areas).32 The hospital officials responded between
                  July – October 2013. Questions focused on:
                  	 hospital disaster responses, that is, whether they evacuated, partially
                     evacuated, or sheltered in place during the storm;33
                  	 decisions hospitals made regarding evacuating, sheltering in place, or
                     receiving evacuated patients;
                  	 factors that impeded or enhanced their ability to execute evacuation
                     plans;
                  	 problems, if any, related to the health and safety of patients during the
                     storm;
                  	 assistance, if any, provided to hospitals by State survey agencies and
                     accreditation organizations to ensure hospital compliance during and
                     after the storm;
                  	 coordination with State and local emergency management agencies
                     during the storm; and
                  	 participation in ASPR’s Hospital Preparedness Program and CDC’s
                     Public Health Emergency Preparedness Cooperative Agreements
                     program.
                  We received questionnaire responses from 172 of the 174 hospitals.

                  32
                     We identified hospitals located in declared disaster areas using CMS data from
                  Medicare Hospital Compare and CASPER. 

                  33
                     For the purposes of this evaluation, we defined hospitals as sheltering in place if they 

                  did not evacuate or partially evacuate. 



Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                        25
Figure A-1: Map of Hospitals Located in Federally Declared Disaster Areas in Connecticut, New
Jersey, and New York as a Result of Sandy




Source: OIG analysis of CMS data from Medicare Hospital Compare and CASPER, 2013; and FEMA, FEMA-4085-DR, FEMA-4086-DR, and FEMA-
4087-DR. Accessed at http://www.fema.gov on March 4, 2013.




                         Interviews
                         Hospital Site Visits and Interviews. To learn about the experiences of
                         hospitals located in areas most affected by the storm, we conducted site
                         visits during August 2013 to a small, purposive subset of 10 hospitals, and




     Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                                 26
                  interviewed hospital administrators and staff.34 Interview questions
                  focused on emergency preparedness; decisions to evacuate, shelter in
                  place, or receive evacuated patients; experiences during and after the
                  disaster; and adherence to emergency plans. We also asked about lessons
                  learned from the disaster experience and asked whether hospitals had
                  made changes to their emergency plans and training as a result.
                  State Survey Agencies and Accreditation Organizations. To gain insight
                  about State-level collaboration, assistance, and regulations related to
                  hospital emergency preparedness and response, we conducted telephone
                  interviews with State survey agencies in Connecticut, New Jersey, and
                  New York, as well as the three accreditation organizations that had
                  surveyed hospitals in the affected areas, TJC, AOA, and DNVHC.35 We
                  asked about the processes surveying entities used to ensure that hospitals
                  comply with Federal regulations regarding emergency preparedness and
                  training, as well as any assistance provided to hospitals prior to, during,
                  and after the storm. We also asked about lessons learned from the disaster
                  experience and asked whether State survey agencies and accreditation
                  organizations had made changes to their policies and procedures for
                  hospitals as a result.
                  State Hospital Associations. We also conducted telephone interviews with
                  State hospital associations in Connecticut, New Jersey, and New York to
                  gain insight about State-level collaboration, assistance, and regulations
                  related to hospital emergency preparedness and response. Interview
                  questions focused on requirements, support and assistance, and
                  communication and collaboration with hospitals for emergency
                  preparedness planning prior to the disaster. We also asked about lessons
                  learned and asked whether State hospital associations had made changes to
                  their plans for hospitals as a result.
                  State Health Care Coalitions. To gain insight about the role and
                  collaboration of health care coalitions regarding emergency preparedness
                  and response, we conducted telephone interviews with State health care
                  coalitions in Connecticut, New Jersey, and New York. We asked about
                  assistance provided prior to, during, and after the disaster. We also asked
                  about lessons learned from the disaster experience and asked whether

                  34
                     We purposively selected hospitals that evacuated, partially evacuated, sheltered in
                  place, and/or received patients from other hospitals and were located in areas most
                  affected by Sandy.
                  35
                     The Center for Improvement in Healthcare Quality was approved by CMS as a national
                  accrediting organization on July 26, 2013, after our study period. 78 Fed. Reg. 45231,
                  Federal Register, Vol. 74, Issue 144 (July 26, 2013).


Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                27
                  health care coalitions had made changes to their guidance provided to
                  hospitals as a result. Additionally, we asked about participation in ASPR’s
                  Hospital Preparedness Program.
                  Document Reviews
                  Hospital After-Action Reports. For each of the 10 hospitals that we
                  visited, we requested and received Sandy-specific after-action reports.
                  These reports typically describe a hospital’s actions taken before, during
                  and after an event such as Sandy; evaluation of the hospital’s actions; and
                  any changes that the hospital will make to plans, policies, procedures, staff
                  training, and physical environment to improve and enhance the hospital’s
                  response to a future event.
                  Accreditation Organizations Documents. For each accreditation
                  organization with which we conducted an interview, we also requested
                  and received copies of documents detailing processes used to evaluate
                  hospital emergency preparedness and training, such as survey protocols
                  and guidelines.
                  Hospital Surveys. For each of the 174 hospitals, we requested the most
                  recent full standard survey conducted prior to the storm.36 Full standard
                  surveys included surveyor notes, which provided specific details about
                  each deficiency citation. We received full surveys for 171 hospitals from
                  TJC, AOA, DNVHC, and the Connecticut State survey agency.37




                  36
                     We did not include complaint surveys in our analysis. Complaint surveys focus on the
                  specific regulatory requirements related to the complaint. During a complaint survey, if
                  surveyors identify significant problems, the surveyors can expand the survey to review
                  the hospital’s compliance with other Medicare Conditions of Participation. CMS, State
                  Operations Manual, ch. 5, §§ 5050 and 5200.1.
                  37
                     The accreditation organizations surveyed 170 of the 171 hospitals in declared disaster
                  areas. TJC surveyed 163 hospitals, DNVHC surveyed 5 hospitals, and AOA surveyed 2
                  hospitals. The Connecticut State survey agency surveyed the remaining hospital. We did
                  not receive surveys for three hospitals because of unavailable data.


Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                   28
                  Data Analysis
                  Qualitative analysis
                  To examine challenges experienced by hospitals during Sandy, we
                  qualitatively analyzed hospital questionnaire responses and transcripts
                  from interviews with hospital staff, State survey agencies, accreditation
                  organizations, State hospital associations, and State health care coalitions.
                  In analyzing the interview data, we developed themes and selected
                  examples for illustration.
                  Quantitative analysis
                  We also analyzed hospital questionnaire responses and hospital deficiency
                  data quantitatively. Whenever possible, we quantified data from site visit
                  interviews and hospital after-action reports. To determine the prominence
                  of emergency-related issues among hospital deficiencies, we reviewed full
                  standard surveys and identified deficiencies related to emergency
                  preparedness. To make these determinations, we reviewed surveyors’
                  written narratives of the circumstances leading to the deficiencies and their
                  categorization of each deficiency to determine what the nature of the
                  deficiency was and whether the problem identified by surveyors appeared
                  relevant to emergency preparedness.




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)        29
                  APPENDIX B
                  Table B-1: Challenges Reported by Hospitals
                                                                                                              Hospitals
                   Challenge
                                                                                                               (n=153)
                   Hospital infrastructure                                                                          83
                       Electrical utilities                                                                           69
                       Backup generator                                                                               35
                       Structural damage                                                                              29
                       Flooding                                                                                       18
                       Water utilities                                                                                  7
                       Gas utilities                                                                                    3
                       Building security                                                                                3
                       Steam                                                                                            2
                   Patient surge                                                                                      74
                       Patient surge from other hospitals                                                             36
                       Patient surge from home care (chronic care)                                                    35
                       Patient surge from nursing homes                                                               32
                       Patient surge from clinics, such as dialysis and methadone clinics                             30
                       Patient surge from mental health clinics                                                         4
                       Patient surge from shelters                                                                      3
                       Surge of nonmedical displaced persons                                                            1
                   Communication                                                                                      59
                       Communication with staff who were off work                                                     25
                       Communication with local authorities responsible for emergency management                      23
                       Communication with utility companies                                                           22
                       Communication within the hospital                                                              20
                       Communication with other hospitals                                                             18
                       Communication with State and local health departments                                          13
                       Communication lost                                                                               5
                   Staffing                                                                                           57
                       Nurse shortage                                                                                 43
                       Physician shortage                                                                             13
                       Maintenance staff shortage                                                                       9
                       Dietary staff shortage                                                                           9
                       Security staff shortage                                                                          7
                       Problems managing volunteers and staff from other hospitals                                      4
                       Long work hours                                                                                  2
                       Lab staff shortage                                                                               1
                       Documentation staff shortage                                                                     1
                       Support services                                                                                 1
                       Housing arrangements for staff                                                                   1
                  Note: Some hospitals reported experiencing more than one challenge.               Continued on next page.
                  The table represents only those hospitals that reported one or more challenges.




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                                  30
                  Table B-1: Challenges Reported by Hospitals
                  (Continued)
                                                                                                                       Hospitals
                   Challenge
                                                                                                                        (n=153)
                   Recovery                                                                                                  50
                       Financial loss                                                                                          44
                       Physical damage to hospital                                                                             26
                       Unbillable patient care                                                                                 18
                       Decreased census after the storm                                                                        15
                       Increased staff mental and physical health issues (including stress and PTSD)                           15
                       Damage to medical equipment                                                                               9
                       Loss of medical equipment                                                                                 8
                       Damage to computer and other health information systems                                                   7
                       Decreased staff productivity                                                                              7
                       Problems with returning to the facility after the storm                                                   6
                       Personal impact on staff                                                                                  5
                       Shift of patient diagnostic mix                                                                           4
                       Increased rates of sick leave                                                                             3
                       Increased staff turnover rates after the storm                                                            1
                       Increased census                                                                                          1
                   Supplies                                                                                                    47
                       Fuel                                                                                                    29
                       Pharmaceutical supplies                                                                                 10
                       Food and water                                                                                            9
                       Linen                                                                                                     6
                       Medical equipment (including furniture)                                                                   5
                   Collaboration                                                                                               47
                       Collaboration with local authorities responsible for emergency management                               27
                       Collaboration with State authorities responsible for emergency management                               22
                       Collaboration with utility companies                                                                    11
                       Collaboration with other hospitals                                                                        9
                       Collaboration with State and local emergency response entities (EMS)                                      5
                       Collaboration with Federal authorities responsible for emergency management                               3
                   Patient care                                                                                                42
                       Patient discharge                                                                                       30
                       Patient transfer                                                                                        18
                       Shortage of patient beds                                                                                18
                       Shortage of psychiatric beds                                                                              3
                       Shortage of pediatric patient beds                                                                        1
                       Tracking evacuated patients                                                                               1
                       Informing families/guardians of evacuated patients’ location                                              1
                       Delayed lab results                                                                                       1
                   Transportation                                                                                              15
                  Note: Some hospitals reported experiencing more than one challenge.                        Continued on next page.
                  The table represents only those hospitals that reported one or more critical challenges.




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                                           31
                  Table B-1: Challenges Reported by Hospitals
                  (Continued)
                                                                                                                      Hospitals
                   Challenge
                                                                                                                       (n=153)
                   Documentation                                                                                            13
                       Access to patient medical records                                                                           7
                       Incompatibility of medical record system with other systems                                                 3
                       Credentialing and privileging of medical staff                                                              2
                       Less efficient downtime process                                                                             1
                   Medicare Conditions of Participation (CoP)                                                                      5
                       CoPs related to patient care                                                                                3
                       CoPs related to the hospital physical plant                                                                 2
                       CoPs related to communication                                                                               1
                       CoPs related to patient care                                                                                1
                  Note: Some hospitals reported experiencing more than one challenge. The table represents only those hospitals

                  that reported one or more critical challenges. 

                  Source: OIG analysis of 172 hospital questionnaire responses, 2013. 





Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                                             32
                  APENDIX C
                  Agency Comments: ASPR




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)   33
                  ASPR (continued)




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)   34
                  ASPR (continued)


                                                                                              OEI-06-13-00260
                                                                                                       Page 3

            public health activities. The initiative will also in FY 2015 launch anonymous data and mapping
            tools that can inform and assist public health, emergency management, healthcare coalitions, and
            other community partners with emergency planning and exercises. The project will enable
            emergency management, public health, and medical care providers to identify critical
            infrastructure, planning, exercising, and allocation of key resources capabilities required for
            medical Slll"ge.

            During FY 2014, ASPR also sponsored the development of a Hmpital Surge Stress Test Tool
            that hospitals can usc to test and evaluate their ability absorb a sudden influx of patients that
            would exceed their normal patient surge capacity. The purpose of the tool is to mimic the effect
            that a mass casualty effect has on a hospital's emergency department and inpatient wards and the
            ability absorb and move patients during the first 90 to 120 minutes of an event. Because mass
            casualty events exceed 90 minutes, hospitals have and will be forced to address increased
            demand for bed space through various tactics such as cancellation of elective surgeries and rapid
            release oflower acuity patients. ASPR is cunently developing a new stand-alone Healthcare
            Coalition Module that, when used in concc1i with the Hospital Surge Stress Test Tool fully
            engages and enables hcalthcare coalition (HCC) members (e.g., hospitals, long-term care,
            dialysis centers, community health centers, public health, emergency medical services,
            emergency management, or other fom1al/infom1al regional coordinating entities) to participate in
            an exercise, and all follow-up evaluation and measurement activities. The goal is to develop a
            stand-alone IICC Surge Stress Test Tool or module (e.g. HCC Module) that will allow hospitals
            and HPP-fundcd coalitions to test and evaluate their ability to respond to a large and sustained
            mass casualty event. The HCC Stress Test Too/must be able to test the HCCs' ability to:
                • 	 activate and communicate among its members based on established protocols and 

                    doctrine; 

                • 	 implement components described in the HPP Jiealthcare Preparedness Capabilities,
                    National Guidance .for Healthcare System Preparedness; and
                • 	 assess the HCCs ability to execute all three pillars oflmmediate Bed Availability (IBA),
                    including (I) situational awareness, (2) onboarding of patients and (3) oftloading of
                    patients.

            Thank you again for can-ying out this study. The findings of this OIG study highlight the
            urgency and essential nature ofASPR's efforts to promote federal, state and community
            collaboration so that hospitals and health care communities arc truly prepared, and field tested, to
            respond effectively to disasters. This study provides a snapshot of!cssons learned from
            hospitals' response to Sandy that will be a valuable addition to the knowledge base. We
            appreciate the oppmiunity to review your report and respond to your recommendation. Please
            direct any questions to Marion Aldlich by telephone at 202.205.6053, or by e-mail at
            Marion.Aldrich@hhs.gov.


                                                                 /S/
                                                  -----······-·------------­
                                                  Nicole Lurie, MD, MSPH
                                                  Assistant Secretary tor Preparedness and Response




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                             35
                 Agency Comments: CMS


    .~~"~
   ( - : / - DEPARTMENT OF HEALlli & HUMAN SERVICES                                     Centers for Medicare & Medicaid Services


                                                                                        Administrator
                                                                                        Washington, DC 20201




              DATE:           JUL 17 2014

              TO: 	         Daniel R. Levinson
                            !nspec\\lr General
                                                  /S/
              FROM: 	       M<r{ilyn 1'\avenner
                            AdminiStrtltor

              SUBJECT: 	 Office oflnspector General (OIG) Draft Report: Hospital Emergency Preparedness
                         and Response During Superstorm Sandy (OEI-06-13-00260)

              Thank you for the opportunity to review and comment on the above-subject OIG draft. The
              objective of this study was to describe the disaster experiences of hospitals affected by
              Superstorm Sandy, including challenges to hospital operations and patient care, and to determine
              the extent to which state survey agencies and accreditation organizations cited hospitals with
              emergency preparedness-related deficiencies prior to Superstorm Sandy.

              The OIG recommendation and the Centers for Medicare & Medicaid Services' (CMS) response
              are discussed below.

              OIG Recommendation

              The OIG recommends that CMS should examine existing policies and provide guidance
              regarding flexibility for reimbursement under disaster conditions.

              CMS Response

              The CMS concurs with the recommendation. CMS appreciates OIG's interest in seeing
              Medicare and Medicaid afford hospitals some flexibility in disaster situations in meeting medical
              necessity requirements in order to bill for medical care furnished to patients who would not
              normally meet the criteria for hospital services. However, with regard to payment for services
              provided to Medicare beneficiaries, at this time, Medicare has no statutory authority to make the
              requested exceptions. In fact, very few program rules can be waived or modified under current
              law, even in a disaster or emergency. Section 1135 of the Social Security Act (the Act)
              authorizes the Secretary of the Department of Health and Human Services to waive, or in some
              cases, modify certain requirements that relate to the Medicare, Medicaid, and Children's Health
              Insurance Programs. The requirements that the Secretary may waive or modify, in an emergency
              area and during an emergency period, are, in summary, as follows:

                  1. Provider requirements:

                         a. Conditions of participation or other certification requirements for an individual
                         health care provider or types of providers and certain suppliers;




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)                                             36
                  CMS (continued)




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)   37
                  CMS (continued)




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)   38
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Kevin K. Golladay,
                  Regional Inspector General for Evaluation and Inspections in the Dallas
                  regional office; Ruth Ann Dorrill, Deputy Regional Inspector General; and
                  Blaine Collins, Deputy Regional Inspector General.
                  Petra Nealy served as the primary team leader for this study. Other Office
                  of Evaluation and Inspections staff from the Dallas regional office who
                  conducted the study include team leaders Deborah Cosimo and Lyndsay
                  Patty and lead analyst Jennifer Hagen. Additional Dallas regional office
                  staff who contributed to the study include Ben Gaddis, Malinda Hicks, and
                  Jeremy Moore. Central office staff who provided support include
                  Clarence Arnold and Meghan Kearns.




Hospital Emergency Preparedness and Response During Superstorm Sandy (OEI-06-13-00260)    39
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
